No. 19-357
INTHE

CITY OF CHICAGO,

Petitioner,

V.
ROBBIN L. FULTON,JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF SERVICE

I, Craig Goldblatt, a member of the bar of this Court, hereby certify that, on this
8th day of April, 2020, all parties required to be served have been served copies of the
Reply Brief for Petitioner in this matter by email and overnight courier to the address
below.
EUGENE WEDOFF

144 N. Elmwood A venue
Oak Park, IL 60302
(312) 285-5849

erwedoff@me.com

WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania A venue NW
Washington, DC 20006
(202) 663--6000
craig.goldblatt@wilmerhale.com

